-   February 10, 2003




Audit Oversight

Quality Control Review of Grant
Thornton, LLP Office of Management
and Budget Circular A-133 Audit
Report of the Center for Naval
Analyses Corporation, Fiscal Year
Ended September 30, 2001
(D-2003-6-004)




           Office of the Inspector General
           of the Department of Defense
 Quality                Integrity      A ccountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CNA                   Center for Naval Analyses
CNAC                  CNA Corporation
DCAA                  Defense Contract Audit Agency
FAR                   Federal Acquisition Regulation
FFRDC                 Federally Funded Research and Development Center
GAS                   Government Auditing Standards
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
R&D                   Research and Development
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VI RGINlA 22202-4704

                                                                         February 10,2003


Board of Trustees            I


The Center for Naval Analyses Corporation

Partner in Charge
Vienna Office
Grant Thornton, LLP


SUBJECT: Report on Quality Control Review of Grant Thornton, LLP Office of
         Management and Budget Circular A-133 Audit Report of the Center for
         Naval Analyses Corporation, Fiscal Year Ended September 30,2001
         (Report NO.D-2003-6-004)


        We are providing this report for your information and use. The audit firm of
Grant Thornton, LLP (Grant Thornton) performed the FY 2001 single audit for the
Center for Naval Analyses Corporation (CNAC), located in Alexandria, Virginia. Office
of Management and Budget Circular A-133, “Audits of States, Local Governments, and
Non-Profit Organizations,”(OMB Circular A-1 33) requires the audit. CNAC expended
$66.6 million in Federal awards under the Research and Development (R&D) cluster
during the fiscal year that ended September 30,2001. Of the $66.6 million, $62.6 million
was expended for DoD research and development programs.
Background. CNAC maintains two operating divisions, the Center for Naval Analyses
(CNA) and the Institute for Public Research. CNA is a federally funded research and
development center (FFRDC) whose primary focus is to provide assistance to the Navy
in operations and systems analysis. CNA has conducted research for the Navy and other
government entities since 1942 under affiliations with various universities and institutes.
Effective October 1, 1990, CNA was granted FFRDC status as an independent entity.
The Institute for Public Research division provides resources for studies and analyses for
non-DoD agencies. CNAC is subject to the Cost Accounting Standards and Disclosure
Statement requirements in 48 Code of Federal Regulation Chapter 99. Grant Thornton
has provided OMB Circular A-133 audit services to CNAC since FY 1991. The Grant
Thornton offices in the Washington, D.C., area have performed 24 OMB Circular A-133
audits in the last year.
Quality Control Review Objective. As the cognizant Federal agency for CNAC, the
Office of the Inspector General of the Department of Defense (OIG DoD) performed a
quality control review of the single audit report and supporting working papers for the
FY 2001 CNAC single audit. The objectives of the review were to determine whether the
audit was conducted according to Government Auditing Standards (GAS) and the
auditing and reporting requirements of OMB Circular A-133.
Review Results. The Grant Thornton auditors did not meet the requirements of
OMB Circular A-133 and GAS that related to the audit of Federal programs because the
FY 2001 single audit was not adequately planned, executed, and documented (finding A
and finding B). CNAC generally complied with OMB Circular A-133 reporting

                                             1
requirements, except that the Schedule of Expenditures of Federal Awards did not clearly
identify expenditures received as pass-through awards or provide the identifying number
assigned by the pass-through entities. In addition, the reporting package did not contain a
Summary Schedule of Prior Audit Findings (finding C).

Finding A. Audit Planning and Performance of Single Audit. The Grant Thornton
auditors did not adequately plan and perform the single audit of CNAC major program
Federal awards according to OMB Circular A-133 requirements. The auditors failed to
exercise due professional care because they did not perform sufficient procedures to
support their opinion statements on compliance with major program requirements and on
the fair representation of the Schedule of Expenditures of Federal Awards. This
condition occurred because the auditors did not:

               •   Develop and use a representative sample of awards from the R&D
                   cluster to test internal control over compliance as well as compliance
                   with major program requirements;

               •   Review and consider the work of others;

               •   Identify all of the applicable compliance requirements;

               •   Perform adequate tests of internal control over compliance and
                   compliance with major program requirements; and

               •   Perform adequate audit followup procedures.

As a result of the inadequate planning and performance of the single audit, Federal
awarding agencies cannot rely on Grant Thornton audit reports for assurance that CNAC
is managing Federal awards in compliance with laws, regulations, and award provisions.

        Audit Coverage and Sampling Methodology. The Grant Thornton auditors did
not plan for adequate audit coverage to achieve the objectives of OMB Circular A-133
audit of Federal programs. The auditors selected transactions from only three awards
covering two Federal agencies, resulting in a sample selection that was not representative
of the R&D cluster as a whole. In addition, one of the three awards selected should not
have been included in the sample selection because it was a fixed-price contract and not
subject to the single audit requirements.

The American Institute of Certified Public Accountants Statements on Auditing
Standards AU §350.17 states that when planning a particular sample, the auditor should
consider the specific audit objective to be achieved and determine the audit procedure, or
combination of procedures, applied to achieve that objective. The auditor should
determine that the population from which the sample is drawn is appropriate for the
specific audit objective. For the three awards reviewed, the auditors selected sample
items from expense and time sheet reports. The working papers did not demonstrate how
the sample items and audit procedures achieved the objectives for the review of internal
control and compliance for each applicable compliance requirement. OMB Circular
A-133 requires assessment of the level of control risk. The working papers did not
contain a basis for how the selected sample would achieve a low level of assessed control
risk.




                                            2
During our review, Grant Thornton management advised us that the firm’s practice was
to use a sample of 30 transactions. The Grant Thornton auditors originally selected
30 direct cost transactions and 30 indirect cost transactions for testing purposes. The
sample size was then revised to test 50 direct cost transactions and 10 indirect cost
transactions. To test for the allowability of costs, the auditors inappropriately reduced the
sample size for indirect costs from the original 30 to 10 transactions. Specifically, the
working papers indicate that the auditors depended on the Defense Contract Audit
Agency (DCAA) to perform an incurred cost audit of CNAC indirect costs as the
rationale for reducing the sample size. When making the decision, however, the auditors
did not coordinate with the DCAA. At the time the auditors were performing the
FY 2001 single audit, the DCAA had not planned or performed the FY 2001 incurred
cost audit for CNAC. As a result, the auditor’s conclusion that $30 million of indirect
cost expenditures was allowable was based on a sample of 10 transactions with an
approximate value of $100,000.

Unless all awards from the R&D cluster are represented in the sampling universe and
specific audit objectives and procedures are considered when designing the sample, the
planning of the single audit remains inadequate.

        Consideration of the Work of Others. The Grant Thornton auditors did not
properly assess and consider audits and reviews performed by the DCAA and the CNAC
internal compliance group. GAS 6.14 states that the auditor should determine whether
other auditors have previously done or are doing audits of the program or entity for
planning and performing the audit. If other auditors have identified areas that warrant
further study, that audit work may influence an auditor’s selection of objectives and
methodology as well as limit the extent of their own testing.

During our review, we found that the auditors did not consider the results of all DCAA
audit reports issued during CNAC’s fiscal year ending September 30, 2001. This
occurred because the auditors relied solely on CNAC statements that during the audit
period the DCAA had only issued one report. However, the DCAA had issued 11 reports
between October 2000 and September 2001. Five of the 11 reports identified deficiencies
with compliance with cost accounting standards, employee compensation policies and
procedures, internal controls over the data processing system, and labor charging. These
deficiencies should have been considered in assessing the risk for noncompliance with
laws and regulations and in determining the nature and extent of the compliance testing.

Based on our review of the Grant Thornton working papers, the CNAC internal
compliance group acted as the internal audit function in a limited capacity and performed
reviews of time charging and compliance under “government contracting standards.”
However, no evidence existed that Grant Thornton auditors coordinated with the internal
compliance group to obtain review results.

As a result of Grant Thornton’s failure to assess and consider the results of these audits
and reviews in their risk assessment process, we could not determine whether the auditors
obtained sufficient evidence to support their opinion on compliance with major program
requirements.

       Determination of Applicable Compliance Requirements. The Grant Thornton
auditors excluded three compliance requirements from the single audit because the
auditors did not obtain sufficient knowledge about CNAC operations. The Compliance
Supplement (the Supplement) identifies 14 compliance requirements applicable to the


                                             3
R&D cluster. When determining not to test a requirement, the Supplement requires an
auditor to conclude why the requirement does not apply to the non-Federal entity or that
noncompliance with the requirement would not have a material effect on a major
program.

The Grant Thornton auditor’s determination that the following three compliance
requirements were not applicable to CNAC for FY 2001 was not accurate. The three
compliance requirements are:

               •   Equipment and Real Property Management;

               •   Subrecipient Monitoring; and

               •   Matching, Level of Effort, Earmarking.

The working papers document that the auditors concluded that the three compliance
requirements were not applicable because CNAC did not purchase any property with
Federal funds, did not provide any funds to subrecipients, and did not have contracts with
matching or level of effort requirements.

However, CNAC advised us during our review that in FY 2001 they had Government-
furnished equipment, had purchased equipment using Federal funds, and had provided
$1.7 million to subrecipients. Also, delivery orders based on a level of effort could be
issued on the FFRDC contract. Because Grant Thornton did not perform any audit
procedures on those requirements, we could not determine whether the auditors obtained
sufficient evidence to support their opinion on compliance with major program
requirements.

        Review of Internal Controls and Compliance. The Grant Thornton auditors did
not perform adequate tests of internal controls and compliance for the identified
applicable compliance requirements. OMB Circular A-133 and GAS require that the
single audit be planned to identify and test internal controls over Federal programs for all
compliance requirements relevant to a major program. In addition, the Supplement
identifies 14 compliance requirements applicable to the R&D cluster (see Appendix A).
To accomplish this, the auditor must identify all of the applicable and material
compliance requirements, develop an understanding of the internal controls related to the
objectives of each compliance requirement, plan tests of internal controls for each
requirement to support a low assessed level of control risk, and perform the planned tests
of controls. The auditor uses the knowledge gained from this process to design the nature
and extent of compliance testing necessary to provide the auditor with sufficient evidence
to support an opinion on compliance for a major program.

The Grant Thornton auditors identified 6 of the 14 compliance requirements to be
applicable to CNAC. The following deficiencies in Grant Thornton's review of the six
compliance requirements were present:

               Activities Allowed or Unallowed and Allowable Costs/Cost Principles.
The auditors did not identify and test major key controls to meet the objectives of those
two compliance requirements. For example, the objectives of the compliance
requirements include obtaining assurance that direct and indirect costs charged to grants
and contracts comply with applicable cost principles for allowability and allocability.
The tests of controls the auditors documented consisted of management assertions that


                                             4
CNAC provided program managers with training and a statement that the CNAC policy
manual provided guidance on allowable costs and activities. However, no evidence
existed in the working papers that showed the auditors performed the necessary
procedures to corroborate or evaluate the information.

Based on our review, no documentation of procedures existed that would test CNAC
compliance with the Cost Accounting Standards. Furthermore, the auditors incorrectly
used OMB Circular A-122, “Cost Principles for Non-Profit Organizations,” as the criteria
for testing the allowability of payroll costs. CNAC is not subject to OMB Circular A-122
cost principles but rather subject since 1997 to the cost principles of the Federal
Acquisition Regulation (FAR). To compound the error, the auditors did not use the most
recent version of OMB Circular A-122, revised in June 1998.

                Period of Availability of Federal Funds. The Grant Thornton auditors
did not adequately test key controls related to the requirement objectives and did not
perform tests of compliance. Internal control testing generally consisted of inquiries and
observations, and the auditors relied on management assertions that project managers
monitored activities. The auditors did not, however, perform procedures to determine the
accuracy of the information. Specifically, the working papers documented that the
auditors “observed” that management had established procedures to comply with the
availability of Federal funds requirement, but did not provide specifics. We were also
unable to locate any working papers to show that the auditors performed tests of
compliance for this requirement. Although the audit administrator referred us to a
working paper that documented the tests of “subsequent disbursements” for the financial
statement audit, the working paper was not relevant to testing for the period of
availability compliance requirement. Testing for subsequent disbursements ensures that
expenses are recorded in the proper period. Testing for availability of funds ensures that
the CNAC contractors are not incurring expenses without authorized funding.

Based on our review of the working papers, there were indicators of noncompliance with
the requirement for availability of funds that the auditors failed to address. The working
papers made several references to unbilled receivables for costs incurred “in absence of
executed delivery orders or adequate funding.” CNAC contracts are subject to the FAR,
and the FFRDC contract includes clauses that require the Government to be notified
when contract cost expenditures reach 75 percent of estimated costs or obligated funds.
The requirement is applicable to each delivery order. In addition, the FFRDC contract
requires that the contracting officer make in writing all delivery orders and revisions and
that work not begin until the contracting officer issues a delivery order. The contract also
requires that work accepted by the Institute for Public Research, CNAC’s non-FFRDC
division, be fully funded. The Grant Thornton auditors did not consider these
requirements in the single audit and did not perform any procedures to verify CNAC
assertions that cost overruns and unfunded costs were not uncommon with the type of
contract arrangement CNA has and that the Navy would approve the expenditures in the
near future. Without approval, the costs should be classified as unallowable.

              Procurement and Suspension Debarment. The Grant Thornton auditors
did not adequately perform tests of controls and compliance to ensure that CNAC was in
compliance with the objectives of the procurement, suspension, and debarment
requirement. The auditors primarily relied on observations and inquiries to evaluate
management assertions. Two of the objectives for the procurement, suspension, and




                                             5
debarment requirement are: determine whether procurements were made according to
applicable procurement regulations, and determine whether non-Federal entities obtained
the required certifications, specifically suspension and debarment certifications.

The procurement policies should ensure that contract files document the history of the
procurement including, but not limited to, the rationale for the procurement method,
verification of full and open competition, the basis of contract price, and the required
suspension and debarment certifications. As testing for the objectives, the auditors
documented that they had observed the procurement manual made available to CNAC
staff on the intranet and concluded that the manual was designed to meet the
requirements of the FAR. The working papers also indicate that the auditors tested the
requirement as part of the tests for disbursements procedures. However, the referenced
test procedure showed that the auditors relied on the supervisor’s approval signature on
the vouchers as evidence that the procurement complied with policies and procedures.

No documentation existed to support the auditor conclusion that the procurement manual
met the requirements of the FAR or that the auditors reviewed contract files to verify the
history of the procurement, method of procurement, basis of contract price, and whether
the procurement provided for full and open competition. In addition, the auditors did not
perform adequate procedures to validate that CNAC obtained required suspension and
debarment certificates. Auditors observed that CNAC procurement staff had online
access to the Government’s “List of Parties Excluded from Federal Procurement or
Non-procurement Programs,” but the auditors did not review the procurement files for
the required certifications or check a sample of procurements against the published
Government list.

                Reporting. Auditors did not perform adequate procedures to support their
conclusion that CNAC was in compliance with the reporting requirement. The auditors
did not design or perform procedures to determine whether required reports were
complete, accurate, and submitted in a timely manner. This condition occurred because
the auditors did not obtain a sufficient knowledge about the types of reports and
submission requirements in CNAC contracts.

The working paper documentation for the review of internal controls and compliance
showed that the auditor’s conclusion that CNAC was in compliance with this requirement
generally consisted of broad management statements that the auditor did not confirm.
The objective of the reporting requirement is to determine that reports submitted to
awarding agencies and pass-through entities include all activity for the reporting period
and are supported by applicable accounting records. The working papers referenced tests
of the disbursement and payroll process and consisted of tracing transactions from the
accounts payable check register and payroll journal to the general ledger. The tests did
not provide assurance for the objectives of the reporting requirement.

                Special Tests and Provisions. The Grant Thornton auditors did not
perform adequate procedures to determine that CNAC had effective internal controls in
place to ensure compliance with the contract provisions. The auditors did not adequately
identify and test significant special contract provisions, and the documented tests of
internal controls generally consisted of broad management assertions and auditor
observations.




                                            6
The auditors did not identify many of the special contract provisions designed to address
the unique nature of the FFRDC contracting environment. Some of the provisions that
the auditor failed to identify and test include restrictions on CNA initiated projects and
reporting requirements on the related projects; requirements for approval to use
consultants and subcontractors, including specific approval considerations for former
senior government officials; and minimum educational requirements for employees and
consultants.

Auditor testing of compliance for three contract provisions was inadequate. The FFRDC
contract limits certain costs for employees on educational leave and for employees
detained overseas. The contract also requires that CNAC provide the contracting officer
with reports on activities the Institute for Public Research performed. As support for the
testing of internal controls over the Special Tests and Provisions compliance requirement,
the working papers provided only descriptions of certain contract provisions. The
working papers did not provide any specifics on the audit procedures performed to test
compliance with the contract provisions. Furthermore, we could not find any correlation
between the disbursement and payroll transactions selected for testing and how the same
transactions would achieve the testing objectives for compliance with the Special Tests
and Provision compliance requirement. The working papers concluded that the Special
Tests and Provision compliance requirement was met based on inquiries with CNAC
personnel that the contract administrator received reports in a timely manner. However,
no evidence existed in the working papers to indicate that the auditors verified the
number of reports that should have been submitted or that the contracting officer actually
received the reports in a timely manner.

        Performing Audit Followup Procedures. The Grant Thornton auditors did not
exercise professional skepticism because they did not perform adequate audit followup
procedures concerning an occurrence of employee theft, unresolved DCAA findings and
questioned costs from prior years, and a pending investigation on the hiring of two
Government officials. The American Institute of Certified Public Accountants Statement
on Auditing Standards AU §230.08 states that when gathering and objectively evaluating
audit evidence, the auditor is required to consider the competency and sufficiency of the
evidence. Because evidence is gathered and evaluated throughout an audit, professional
skepticism should be exercised throughout the audit process. At the beginning of the
single audit, CNAC management informed the auditors about an employee theft that
occurred over a period of 4 years and CNAC estimated the loss at $50,000. CNAC
management stated that new policies and procedures were implemented to correct the
breakdown in internal controls and that the audit committee was informed of the
employee theft. We did not find any indications that the auditors performed any
followup procedures to confirm CNAC assertions. Our review of the minutes for the
Board of Trustees meetings in FY 2001 showed no evidence that CNAC management
informed the audit committee of the employee theft. In addition, as a result of the
employee theft, the auditors should have considered the impact of this particular known
fraud in the single audit planning process. We found no evidence to indicate that this had
occurred.

The Grant Thornton working papers document information on DCAA findings and
questioned costs from prior years that remain unresolved, and the auditors used that
information to verify the reasonableness of the reserve for unallowable costs for the
financial statement audit. However, no evidence existed in the working papers that the
auditors performed procedures to verify CNAC assertions on the status of the unresolved
issues.


                                             7
The Grant Thornton auditors were notified in the CNAC management letter that CNAC
was under investigation for possible violations in hiring two former Government
officials. CNAC asserted that the result would not have a material effect on the financial
statements. The working papers document that outside counsel for CNAC confirmed the
status of the investigation but did not comment on any loss contingency. The auditors did
not perform any other audit procedures to verify the CNAC assertion.

        Schedule of Expenditures of Federal Awards. The working papers did not
provide sufficient evidence that Grant Thornton performed the steps necessary to support
the audit opinion that the Schedule of Expenditures of Federal Awards was fairly
presented in all material respects in relation to the financial statements taken as a whole.
Specifically, the working papers did not contain an objective, scope, and methodology,
and did not document the work performed as it relates to the audit objectives. We could
not determine on some of the working papers the source of the information, what analysis
was performed, and the purpose, relevance, and conclusion of the analysis as it related to
the Schedule of Expenditures of Federal Awards. As a result, we had no assurance that
the Schedule of Expenditures of Federal Awards was complete and accurate.

Summary. The Grant Thornton, LLP audit work does not meet the requirements of
OMB Circular A-133, the related Compliance Supplement, and GAS auditing standards.
As a result, Federal agencies and pass-through entities cannot rely on the CNAC audit
report to monitor and manage Federal awards.

Based on the deficiencies, we conclude that the audit team members lacked an
understanding of the requirements for performing audits in accordance with GAS and the
OMB Circular A-133 audit requirements. Although the audit team members met the
required 24 hours of continued professional education, we believe that additional training
related to GAS and OMB Circular A-133 audits should be provided to team members
engaged in such audits. In addition, proper supervision should have ensured that the
audit was conducted according to GAS and OMB Circular A-133 requirements.

Recommendation A.1. We recommend that the Controller, Center for Naval Analyses
Corporation:

         a. Direct Grant Thornton, LLP to perform additional audit procedures to address
the specific deficiencies identified in this report and revise the reporting package to
reflect, at a minimum, the date the work is completed. The additional audit procedures
should satisfy the terms of the engagement letter for the single audit of the Center for
Naval Analyses Corporation for the fiscal year ended September 30, 2001, and be
performed at no additional cost to the Federal Government.

        b. Notify the Office of the Inspector General of the Department of Defense when
Grant Thornton provides the revised reporting package to CNAC so that we can perform
a followup quality control review before submission of the revised FY 2001 single audit
reporting package to the Federal Audit Clearinghouse.

       c. Identify as unallowable any costs associated with audit services Grant
Thornton, LLP provided related to the FY 2001 single audit until they perform an
adequate audit as determined by our office.

Management Comments. We request that CNAC management provide comments to
the recommendation and corrective actions planned or taken by February 28, 2003.


                                             8
Recommendation A.2. We recommend that the Partner in Charge, Grant Thornton,
LLP:

        a. Perform additional audit procedures and revise the reporting package to reflect,
at a minimum, the date the work is completed to satisfy Government Auditing Standards
and the Office of Management and Budget Circular A-133 requirements. The additional
audit procedures should address the specific deficiencies identified in this report. The
revised reporting package should be provided to CNAC.

Management Comments. Grant Thornton management nonconcurred, stating that they
believed that the 2001 audit of CNAC complied with professional standards and the
requirements of the Office of Management ad Budget Circular A-133 related to the audit
of Federal programs. Grant Thornton believed that the extent of the procedures requested
by the Inspector General (IG) is generally in excess of the professional standards and the
requirements of Office of Management and Budget Circular A-133. However, Grant
Thornton agreed to perform certain additional procedures requested by the IG in order to
meet the IG requirements. Grant Thornton will provide the additional information
directly to the IG for review and acceptance prior to inclusion in the 2001 workpapers.

Evaluation Response. We disagree with Grant Thornton that their FY 2001 single audit
of CNAC met Government Auditing Standards and the Office of Management and
Budget Circular A-133 audit requirements. The audit standards and requirements for a
single audit are established in the Government Auditing Standards and the Office of
Management and Budget Circular A-133, not by the IG office. Our reported findings are
based on the review of working papers prepared by Grant Thornton auditors during the
audit engagement. We consider those working papers as the record of the procedures
applied, the tests performed, the information obtained, and the conclusions reached in the
audit. We intend to perform a followup quality control review after Grant Thornton
provides CNAC with the revised reporting package. We will review the Grant Thornton
working papers for the additional audit procedures at that time.

Finding B. Documentation of Audit Work Performed. The Grant Thornton auditors
did not adequately document the audit work performed for the single audit of CNAC for
the fiscal year ending September 30, 2001, because they did not comply with GAS
requirements for working papers. Specifically, the Grant Thornton auditors did not
adequately document the sampling methodology for the selection of transactions; and did
not adequately document the testing of internal controls and compliance with the
compliance requirements.

        GAS Working Paper Requirements. GAS requires that working papers contain
sufficient information to enable an experienced auditor with no previous connection with
the audit to ascertain the evidence that supports an auditor’s significant conclusions and
judgments. Working papers should contain objectives, scope, and methodology as well
as any sampling criteria used. The working papers should also contain documentation of
the work performed, including descriptions of transactions and records examined, that
would enable an experienced auditor to examine the same transactions and records.

        Sampling Methodology. The Grant Thornton working papers did not adequately
document the methodology used to establish their sample for the single audit of CNAC
for FY 2001. Although the working papers showed the number of direct and indirect cost
transactions to be tested, the working papers did not document how the selected
transactions would accomplish the testing of objectives for internal control over financial


                                            9
reporting and internal control and compliance with the R&D cluster requirements. For
example, our review of the FFRDC contract between CNAC and the Navy showed that
special requirements existed that the Grant Thornton auditors should have considered for
testing purposes when establishing their sample. Some of the special requirements
included submitting certification of compliance for performing non-FFRDC work;
obtaining prior approval to use and charge consultants/subcontractors to CNA projects;
and that the total reimbursement for salaries, fringe benefits, tuition and fees for
personnel on education or administrative leave did not exceed 3 percent of total costs.
The working paper that Grant Thornton auditors developed to document their sampling
did not address these requirements.

        Internal Controls Over Compliance Requirements. The Grant Thornton
working papers did not contain sufficient, competent, and relevant evidence to support
their conclusions and judgments for the test of internal controls over the compliance
requirements. The working papers documented observations and inquiries the auditors
performed but did not include specific information such as the names of the individuals
interviewed, documents reviewed, or procedures observed. The working papers also did
not contain auditor conclusions of key controls tested for support of the overall control
risk assessment for the compliance requirements that the auditors identified as applicable
to the major program. For example, auditors documented “we have observed that the
accounting system allows for the segregation of allowable and unallowable costs,” as
testing for one of several key controls for the Allowed Cost/Cost Principles and Activities
Allowed/Unallowed compliance requirements. As documentation for the test of a key
control for the Procurement and Suspension and Debarment compliance requirement, the
auditors indicated that, “We have observed that procurement staff have the ‘Lists of
Excluded Parties’ available in an online format.” Those statements do not provide
sufficient evidence to support the auditor’s conclusion that controls for the two
compliance requirements were operating effectively.

        Compliance Requirements. The working papers did not adequately document
the review and audit conclusions for the testing of the six compliance requirements that
the Grant Thornton auditors tested. The working papers referenced for the testing of the
six compliance requirements did not provide sufficient evidence to support the auditor’s
conclusion that CNAC was in compliance with requirement objectives.
For the testing of the Allowable Cost/Cost Principles and Activities Allowed or
Unallowed requirements, the working papers did not adequately document the procedures
performed for establishing compliance with the compliance requirements. Specifically,
the working papers mentioned a number of “observations” by the Grant Thornton
auditors, and the audit procedures performed were primarily designed to test the
disbursement and payroll systems/processes. The working papers did not document
specific audit procedures performed and documents reviewed to assess the allowability of
the costs against the cost principle criteria of the FAR or the terms and conditions of the
contracts. In addition, to identify the working papers that demonstrated the testing of the
Period of Availability compliance requirement, we needed verbal explanations from the
Grant Thornton audit administrator. Without the audit administrator, we would not have
been able to associate the working paper with the testing for the Period of Availability
compliance requirement. The audit procedure identified in the working paper did not
address the objectives of the compliance requirement, and the working paper did not
contain a conclusion relevant to the compliance requirement.




                                            10
Recommendation B. We recommend that the Partner in Charge, Grant Thornton, LLP:

       1. Review the working papers supporting the additional audit procedures
performed for the FY 2001 Office of Management and Budget Circular A-133 audit to
ensure that they are prepared in accordance with Government Auditing Standards and
include the objectives, scope and methodology, as well as work performed including
descriptions of transactions and records examined to support significant conclusions and
judgments reached.

Management Comments. Grant Thornton stated that they believe that the level of
documentation requested by the IG is generally in excess of the professional standards
and the requirements of the Office of Management Budget Circular A-133. However,
Grant Thornton agreed to provide additional documentation with respect to auditing
procedures, audit considerations, and audit conclusions already performed and reached by
Grant Thornton during the 2001 audit.

Evaluation Response. OMB Circular A-133 §__500 requires that audits be conducted in
accordance with Government Auditing Standards. Grant Thornton is subject to and did
not meet the documentation requirements of the Government Auditing Standards. The
documentation requirements for a single audit are established in the Government
Auditing Standards, not by the IG office. We cannot consider and accept significant
supplemental working papers created more than one year later as evidence for the work
performed during the initial 2001 single audit engagement. However, we will review the
Grant Thornton working papers for the additional audit procedures performed to
determine whether the single audit meets the requirements of Government Auditing
Standards and the Office of Management and Budget Circular A-133.

Finding C. OMB Circular A-133 Reporting Package. CNAC did not submit a
complete reporting package for FY 2001 to the Federal Audit Clearinghouse as required
by OMB Circular A-133. The package did not present a clear Schedule of Expenditures
of Federal Awards. The package also did not contain a Summary Schedule of Prior Audit
Findings.

       Schedule of Expenditures of Federal Awards. CNAC did not clearly present in
the Schedule of Expenditures of Federal Awards expenditures received as pass-through
awards or the identifying number the pass-through entities assigned. As a result, Federal
awarding agencies and pass-through entities may have difficulty using the information in
the Schedule to monitor their awards.

      Summary Schedule of Prior Audit Findings. CNAC did not include a
Summary Schedule of Prior Audit Findings in the OMB Circular A-133 reporting
package for open DCAA audit findings for FY 1997 through FY 1999.

Recommendation C. We recommend that the Controller, Center for Naval Analyses
Corporation:

        1. Prepare the Schedule of Expenditures of Federal Awards and a Summary
Schedule of Prior Audit Findings according to the Office of Management and Budget
Circular A-133 requirements and provide those documents to Grant Thornton, LLP for
the performance of additional audit procedures for the FY 2001 Office of Management
and Budget Circular A-133 audit.



                                           11
greed to implement the
Appendix A. Quality Control Review Process

Scope and Methodology
We conducted a quality control review of the Grant Thornton, LLP audit of CNAC for
the fiscal year ended September 30, 2001, and the resulting reporting package that was
submitted to the Federal Audit Clearinghouse dated June 3, 2002. We performed our
review using the 1999 edition of the “Uniform Quality Control Guide for the A-133
Audits” (the Guide). The Guide applies to any single audit that is subject to the
requirements of OMB Circular A-133 and is the approved President’s Council on
Integrity and Efficiency checklist used for performing the quality control reviews. Our
review was conducted from June 2002 through January 2003 and covered areas related
primarily to the audit of the CNAC R&D cluster. As the cognizant agency for CNAC,
we focused our review on the following qualitative aspects of the single audit:

       •   Qualification of auditors

       •   Independence

       •   Due professional care

       •   Planning and supervision

       •   Internal control and compliance testing

       •   Schedule of Expenditures of Federal Awards

       •   Schedule of Findings and Questioned Costs

       •   Summary Schedule of Prior Audit Findings

       •   Data Collection Form

In conducting our review, we reviewed the working papers Grant Thornton, LLP
prepared as well as audit reports the DCAA auditors prepared. We also discussed the
audit with the Grant Thornton, LLP auditors and CNAC personnel and retested selected
sample transactions.

Prior Quality Control Reviews
Since 1996 we have issued three quality control review reports of OMB Circular A-133
audits that Grant Thornton performed. In our report issued in February 2001, we reported
that the Grant Thornton audit documentation did not meet GAS requirements.
Specifically, we could not rely on the working papers to determine that the audit was
adequately planned and performed to meet OMB Circular A-133 requirements. The
nature and extent of the deficiencies were discussed with Grant Thornton at that time.
Significant verbal explanations were required to establish that the audit met the intent of
the single audit requirements. We elected to omit some of the deficiencies as report
findings from the February 2001 report by accepting verbal explanations and
supplemental working papers provided by Grant Thornton to establish the adequacy of


                                            13
the audit. As a result of the verbal discussions, Grant Thornton took actions to prevent
similar deficiencies from occurring in future audits. Grant Thornton provided single
audit training and developed a matrix intended to fully document the identification and
testing of compliance requirement key internal controls. Despite corrective actions taken,
similar deficiencies were found in the current OMB Circular A-133 audit of CNAC.
Copies of Inspector General of the Department of Defense (IG DoD) reports can be
accessed over the Internet at http://www.dodig.osd.mil/audits/reports.

Single Audit Requirements
The intention of the Single Audit Act, Public Law 98-502, as amended, and OMB
Circular A-133 was to improve the financial management of state and local governments
and non-profit organizations. The Single Audit Act and OMB Circular A-133 establishes
one uniform set of auditing and reporting requirements for all Federal award recipients
required to obtain a single audit. OMB Circular A-133 establishes policies that guide
implementation of the Single Audit Act and provides an administrative foundation for
uniform audit requirements of non-Federal entities administering Federal awards.
OMB Circular A-133 requires that Federal departments and agencies rely on and use the
single audit work to the maximum extent practicable. Entities that expend $300,000 or
more of Federal awards in a fiscal year are subject to the Single Audit Act and the audit
requirements in OMB Circular A-133 and, therefore, must have a annual single or
program-specific audit performed under GAS. To meet the intent of the law and
OMB Circular A-133 requirements, the auditee (non-Federal entity) submits to the
Federal Audit Clearinghouse a complete reporting package and a Data Collection Form
on each single audit. The submission includes the following:

       •   Data Collection Form, certified by the auditee that the audit was completed in
           accordance with the OMB Circular A-133;

       •   Financial statements and related opinion;

       •   Schedule of Expenditures of Federal Awards and related opinion;

       •   Report on compliance and internal control over financial reporting;

       •   Report on internal control over compliance for major programs;

       •   Report on compliance with requirements for major programs and related
           opinion;

       •   Schedule of Findings and Questioned Costs;

       •   Summary Schedule of Prior Audit Findings; and

       •   A corrective action plan, when appropriate.

The OMB Compliance Supplement (the Supplement) assists auditors to identify
compliance requirements the Federal Government expects to be considered as part of the
single audit. For each compliance requirement, the Supplement describes the related
audit objectives that the auditor shall consider in each audit conducted under OMB
Circular A-133 as well as suggested audit procedures. The Supplement also describes the


                                           14
objectives of internal control and characteristics that, when present and operating
effectively, may ensure compliance with program requirements. The following 14
compliance requirements identified in the Supplement are applicable to the R&D cluster.

       A.   Activities Allowed/Unallowed
       B.   Allowable Costs/Cost Principles
       C.   Cash Management
       D.   Davis-Bacon Act
       E.   Eligibility
       F.   Equipment and Real Property Management
       G.   Matching, Level of Effort, Earmarking
       H.   Period of Availability of Federal Funds
       I.   Procurement and Suspension and Debarment
       J.   Program Income
       K.   Real Property Acquisition and Relocations Assistance
       L.   Reporting
       M.   Subrecipient Monitoring
       N.   Special Tests and Provisions

The Statement of Position 98-3, “Audits of States, Local Governments, and
Not-for-Profit Organizations Receiving Federal Awards,” published by the American
Institute of Certified Public Accountants, provides guidance on auditor responsibilities
for conducting audits according to the Single Audit Act and OMB Circular A-133. In
general, the Statement of Position 98-3 provides auditors with an understanding of the
unique planning, performance, and reporting considerations for single audits performed
under GAS. In addition, the Statement of Position 98-3 uses summary tables and detailed
discussions to provide the auditor with an understanding of the additional general,
fieldwork, and reporting requirements under GAS, including the additional standards
relating to quality control systems, continuing professional education, working papers,
audit followup and reporting.

The Statement of Position 98-3 emphasizes that when planning an audit to meet the
requirements of OMB Circular A-133, several factors should be considered in addition to
those ordinarily associated with an audit of financial statements in accordance with
Generally Accepted Auditing Standards and GAS. The factors include but are not limited
to:

       •    Determining that the Schedule of Expenditures of Federal Awards is presented
            fairly in relation to the financial statements;

       •    Determining major programs for audit using a risk-based approach;

       •    Determining compliance requirements;

       •    Gaining an understanding of internal control over Federal programs;

       •    Testing internal control over major programs;




                                           15
•   Determining compliance with laws, regulations, and the provisions of contract
    or grant agreements that have a direct and material effect on each major
    program;

•   Satisfying the additional requirements of the Single Audit Act and OMB
    Circular A-133 regarding working papers, audit followup, and reporting.




                                   16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement

Other Defense Organizations
Director, Defense Contract Audit Agency

Department of the Navy
Chief, Office of Naval Research
Audit Liaison, Assistant Secretary of the Navy
  Financial Management and Comptroller
Naval Inspector General

Other Federal Agencies
Office of the Inspector General, National Science Foundation
Office of the Inspector General, Central Intelligence Agency
Office of the Inspector General, Department of Transportation
Regional Inspector General for Auditing, General Services Administration

Non-Government Organizations
Board of Trustees, The CNA Corporation
Audit Committee, The CNA Corporation
CFO and Treasurer, The CNA Corporation
Assistant Controller, The CNA Corporation
Partner, Grant Thornton, LLP
Partner in Charge, Grant Thornton, LLP
Senior Manager, Grant Thornton, LLP
Board of Directors, American Institute of Certified Public Accountants

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Acquisition and Technology, Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations


                                           17
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy




                                          18
CNA Corporation Comments




                   19
Grant Thornton, LLP Comments




                   20
Evaluation Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Inspector General of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to the
report are listed below.

Carolyn R. Davis
Janet Stern
Laura Rainey
Sherry D. Angwafo
Sharon Vasquez
Krista S. Gordon
